<html>
<title> - 2010 ANNUAL REPORT: NEW DEVELOPMENTS IN HUMAN RIGHTS AND THE RULE OF LAW IN CHINA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 2010 ANNUAL REPORT: NEW DEVELOPMENTS IN HUMAN RIGHTS AND THE RULE OF 
                              LAW IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 20, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
63-114                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  

                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Liu, Lawrence, Senior Counsel, Congressional-Executive Commission 
  on China.......................................................     2
Abramson, Kara, Advocacy Director, Congressional-Executive 
  Commission on China............................................     5
Marshall, Steve, Senior Advisor and Prisoner Database Program 
  Director, Congressional-Executive Commission on China..........     7


 2010 ANNUAL REPORT: NEW DEVELOPMENTS IN HUMAN RIGHTS AND THE RULE OF 
                              LAW IN CHINA

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:02 
p.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Douglas Grob, Cochairman's Senior Staff 
Member; Lawrence Liu, Senior Counsel; Anna Brettell, Senior 
Advisor; Steve Marshall, Senior Advisor and Prisoner Database 
Program Director; Kara Abramson, Advocacy Director; Abigail 
Story, Research Associate and Manager of Special Projects; 
Jesse Heatley, Research Associate; and Kiel Downey, Project 
Assistant.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. Good afternoon. Thank you for making it 
through the rain to join us this afternoon. We're grateful you 
are here. On behalf of Chairman Byron Dorgan, I want to welcome 
you to this briefing on the occasion of the Commission's 
release of its 2010 Annual Report. I'm joined by Cochairman 
Representative Sander Levin's Senior Staff Member, Doug Grob.
    For those of you who are unfamiliar with the Commission's 
work, I'm just going to do a quick recap of what we do because 
it's pretty unique on the Hill. Established in 2000, the 
Commission, by law, has 23 Commissioners, 9 from the Senate, 9 
from the House, and 5 Executive Branch members appointed by the 
President.
    The Commission closely monitors developments in China using 
primary sites, for example, Chinese language Web sites, and 
publishes frequent analysis on developments in China, which can 
be found on its Web site. The Commission holds briefings, 
roundtables, and hearings, and publishes a flagship 
publication, an annual overview and analysis of rule of law and 
human rights developments in China. It is perhaps the most 
comprehensive, publicly available review of its kind published 
by the U.S. Government.
    The Commission also, by legislative mandate, maintains a 
database of information on political prisoners in China. I 
encourage you to visit the Web site, www.cecc.gov. There's an 
extraordinary wealth of information that's been built up over 
the years and the political prisoner database, which has 
undergone a major upgrade, makes it very user friendly.
    We have area specialists, each one who has considerable 
depth, experience, and expertise in Chinese research and 
analysis. I'm going to introduce them to you now. First, is 
Jesse Heatley. He is our expert on criminal justice and access 
to justice issues in China; Anna Brettell, who handles 
democratic governance, climate change, and environment; and 
Kiel Downey, who handles freedom of religion. Abbey Story is 
our expert on public health, women's issues, as well as 
trafficking in China.
    Three staff members in particular will provide a quick 
snapshot of findings in their areas of expertise, and then 
we'll turn to a question and answer period for members of the 
audience to ask questions on the range of issues the Commission 
reports on. The first one is Lawrence Liu, our Senior Counsel. 
He will discuss key developments this past year in the area of 
freedom of expression and the Internet.
    I am also joined by Kara Abramson. She is our Advocacy 
Director and our resident expert on Xinjiang and ethnic 
minorities, and she'll talk about developments in that far 
western region of China.
    Steve Marshall, who runs our political prisoner database 
and is our resident expert on the Tibetan areas of China, will 
also discuss recent developments there over the past year.
    While these are different sectors in China, there are a 
number of cross-cutting trends among them. I'm just going to 
highlight two. One concerns freedom of expression. Over this 
past year, Chinese authorities continued to maintain a wide 
range of restrictions that deny Chinese citizens the right to 
freedom of speech, which is guaranteed under the Chinese 
Constitution. This can be seen in the growing ranks of 
political prisoners who were penalized for expression over the 
past year, whether it be Nobel laureate Liu Xiaobo or Uyghur 
and Tibetan webmasters and bloggers.
    We've also seen the nexus between human rights and 
commercial rule of law become more evident. I think it's 
something our business community in China is even beginning to 
talk more openly about.
    Developments over the past year have shown how business 
disputes and commercial issues can have real human rights 
implications when the Party perceives its rights are 
threatened. This was certainly evident in the Google case, 
which Lawrence Liu will discuss, and of course the recent trial 
and sentencing of American geologist Xue Feng, who was 
sentenced to eight years in jail.
    So I'm going to turn, first, to Lawrence to begin our 
discussion. Lawrence will make a brief presentation, followed 
by Kara Abramson, and then by Steve Marshall. Then we'll open 
it up to the audience to ask your questions of Commission 
staff. Thanks.

  PRESENTATION OF LAWRENCE LIU, SENIOR COUNSEL, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Mr. Liu. Thanks, Charlotte. I wanted to begin this 
discussion by--Charlotte mentioned highlighting a few of our 
Annual Report findings with respect to freedom of expression, 
but I'm focusing my remarks right now on the Internet.
    The main thing that we observed over the past year was 
heightened concern by Chinese officials over their ability to 
maintain control over the Internet. To just give a backdrop to 
this, I wanted to throw out some figures in terms of the 
growing influence of the Internet in China.
    Officials now estimate that there are 420 million Internet 
users in China, the most of any country in the world. There are 
220 million bloggers and approximately 800 million cell phone 
users. Those numbers have risen and will continue to rise. The 
Internet and cell phones, text messaging, electronic 
technology, basically, used for communication has created a 
very vibrant and somewhat less restrictive space for 
expression.
    For example, earlier this summer worker strikes in China 
got a lot of media attention over here, and a lot of those 
strikes were organized and documented by Chinese citizens using 
the Internet and cell phones. That's just one example of the 
growing influence and the power of these technologies to be 
able to organize dissent and to criticize the government. So 
they are a growing influence, the numbers.
    But far from trying to contain this growth, the government 
is actually encouraging this. In a white paper that they 
released in April, they talked about increasing the number of 
Internet users as a proportion of the population from the 
current figure of about 29 percent to 45 percent in five years.
    So why is that? Why is the government encouraging the 
growth of information technologies that arguably pose a 
challenge to the government's ability to control information? 
There are a couple of reasons. One, is it helps spur economic 
development. The Internet has been a key driver of economic 
development over the last few years, 10 years.
    The other reason is that it is a good platform for 
government propaganda and the government's message. Their 
reason is that the Internet has been a source for measuring 
public opinion for officials, so if they see problems being 
discussed on the Internet, it gives them sort of a heads up.
    But they're still trying to obviously maintain control, and 
that is, again, back to the major observation from the past 
year. There are a number of measures in a variety of areas. I 
want to focus on two areas right now.
    One is tightening entry requirements, which is basically 
the ability of Chinese citizens, companies, and groups to gain 
a presence on the Internet. Some of you may know, China imposes 
a fairly strict licensing regime over Internet content, so if 
you want to host a Web site, for example, apply for a domain 
name, you have to go through the government.
    What we observed this past year was that individuals were 
facing increasing control over the ability to register their 
Web sites, as well as to post comments anonymously on Chinese 
Web sites. The government acknowledged that they were pursuing 
a policy of requiring more people to use their real names and 
IDs when they post comments on news Web sites, for example.
    The second thing I wanted to discuss is the increasing 
pressure on private companies to censor. We observed a 
crackdown on blogging sites earlier this year and we observed a 
couple of new laws, one being the state secrets law, and 
another the tort liability law, which included new provisions 
aimed at Internet companies which could, in the future, 
increase the pressure on them to censor political content.
    Which brings me to the Google case and discussion of 
private companies and the obstacles they face in the Chinese 
market with respect to censorship. Just as a little background, 
if you're not familiar with the case, in January, Google 
announced that it was reconsidering its offering of search 
services through their Google.cn site, which they created for 
the Chinese market back in 2006, because, as they put it, they 
had been the victim of a cyber attack originating from China, 
as well as increasing censorship from Chinese officials over 
the past year. It really put Google on a collision course with 
the Chinese Government.
    Now, the way the case unfolded really highlighted a couple 
of issues regarding China's censorship and licensing 
requirements. The first, was the most obvious problem of the 
content prohibitions, basically, the requirement that all 
Internet service providers in China must censor political 
content based on standards that are vague and orders that are 
not delivered in a very transparent way. The Google case really 
highlighted that.
    The Google case also highlighted this nexus between trade 
and human rights, the issue being that those unwilling to 
censor, or to censor as vigorously as the Chinese officials 
like them to, risk market access and market share. I don't know 
if you've seen the news from today, but analysts are now 
reporting that Google's share of the Chinese market has 
declined even further this past quarter, and it's seen a steady 
decline throughout the whole year.
    The third issue that the Google case highlights is the free 
flow of information for Chinese citizens. So this is not just 
about a 
private company trying to gain access to the Chinese market, 
it's about Chinese citizens potentially losing what they 
perceive to be, and what by some accounts is true, a less 
censored source of information compared to domestic 
alternatives like Baidu. So this 
presented a free flow of information problem for Chinese 
citizens, particularly academics and more educated Chinese who 
really saw Google as a primary source of information.
    The last issue is this licensing issue that I mentioned 
earlier. Google, just like any other company that needs to 
operate in China, wants to operate in China, was required to 
get a license. This controversy arose. Google's solution was to 
automatically redirect users to their Hong Kong site, which 
they didn't have to censor because it was in Hong Kong.
    But then Google's licensing renewal in China came up, and 
so they backtracked from that position and instead of 
automatically redirecting users to their Hong Kong site, they 
created a link on the Chinese site that would allow users to 
voluntarily opt to go to the Hong Kong site. So that's just an 
example of how the licensing requirement forces companies to 
consider whether or not what they're doing could potentially 
jeopardize the ability to get their license renewed or to keep 
their license.
    I just wanted to mention briefly the Liu Xiaobo case, 
because that's come up a lot because of the Nobel Peace Prize. 
That case was also an example of this heightened concern over 
the Internet because the court opinion really emphasized the 
writings that Liu Xiaobo was associated with, including Charter 
08, which was this manifesto supporting political reform and 
human rights, as well as the essays that Liu had written, were 
posted on the Internet, had been viewed a certain number of 
times, and the opinion included some really interesting 
language about the sort of dangerous effects of the Internet 
and how quickly information can be spread over the Internet. So 
it definitely highlighted how concerned officials were over 
their ability to control the free flow of information on the 
Internet.
    One more interesting point about how all of this translated 
into how Chinese officials were responding to attacks from 
people about censorship, claims that China was censoring 
information. The Google case really kind of put them on a PR 
defensive. In response, what they did was to, not start, but 
continue arguing that what they're doing is actually in line 
with international law.
    In June, they issued a white paper in which they said that 
China guarantees freedom of speech on the Internet, that their 
model is consistent with international practices. They 
acknowledged, in a speech given by a high-level official in 
April, that they were engaged in a sort of diplomatic or PR 
campaign to convince other countries and to gain the 
international community's acceptance of their model of the 
Internet and acknowledged that they had engaged in dialogue and 
exchanges with more than 70 countries and international 
organizations to get that message out. So it's turned into an 
interesting response in terms of Chinese officials arguing that 
what they're doing is simply what other countries are doing.
    Now, has there been push-back within China? Definitely, 
there has been. I just wanted to point out that most recently 
some of you may have heard of the open letter that had been 
issued by a group of retired Communist Party officials. One of 
the points that they had argued in that letter was that they 
wanted the Internet regulated to stop arbitrary deletion of 
online comments and to do away with the restrictions on anti-
censorship technologies. So the issue is definitely a hot one 
within China. You can see it in terms of blog postings and 
other ways that Chinese citizens are using to try to get around 
the censorship.
    In the Freedom of Expression section of the Annual Report 
we also discuss the issue of press freedom and the abuse of 
criminal law to punish free expression, and I would be happy to 
address any of those issues in the Q&A.
    But I'll turn it over now to Kara Abramson, who will talk 
about developments in Xinjiang, where Internet access was also 
severely curtailed this past year.

       PRESENTATION BY KARA ABRAMSON, ADVOCACY DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Abramson. Thanks, Lawrence. I will indeed return to the 
subject of freedom of expression in just a moment, as it 
relates to conditions in Xinjiang.
    Turning to this topic, simply put, human rights conditions 
in the Xinjiang Uyghur Autonomous Region worsened during the 
Commission's 2010 reporting year. This reporting year came on 
the heels of a suppressed demonstration by Uyghurs and multi-
ethnic riots in the region in July 2009.
    Following these July 2009 events, authorities instituted 
unprecedented levels of control over the free flow of 
information, imposing a full and then partial block on Internet 
access, for example, that extended into May 2010. In many ways, 
this information block set the tone for the past year and 
exemplifies the worsening conditions that we've seen.
    In the past year, authorities also strengthened security 
measures in the region and, as in the past, authorities 
continued to politicize security concerns, targeting peaceful 
human rights activity and political dissent, for example, as 
threats to the region's security.
    Authorities singled out Uyghurs in security campaigns and 
the whereabouts of some Uyghurs detained in the aftermath of 
the July 2009 demonstrations and riots, including Uyghurs who 
were detained in broad security sweeps, remain unknown.
    As the government tightened security campaigns, it used the 
specter of religious extremism to tighten control over 
religion, and over Islam in particular. We also saw new steps 
to bring Muslim women religious figures under government 
control, campaigns against women who wear head scarves, and 
detentions of Muslims who gathered in organizations independent 
of government control.
    A number of trials took place in the past year that were 
connected to the July 2009 demonstrations and riots, and they 
have been marked by a lack of transparency and violations of 
due process, both as defined in Chinese and international law. 
We have only limited details on all of the trials that took 
place, but we have seen evidence of curbs on legal defense, and 
judges chosen for their political reliability.
    The Chinese Government has publicized trials connected to 
violent crimes that took place in July 2009, but we have also 
seen reports of people tried and imprisoned for political 
reasons. Among them are Uyghur Web site workers whose Web sites 
posted announcements for a peaceful demonstration on July 5, 
2009, or whose Web sites posted critical articles. Among them 
is also a journalist who gave a foreign media interview that 
was critical of some aspects of government policy in Xinjiang.
    In April, Zhang Chunxian replaced Wang Lequan as Xinjiang 
Party secretary, and while Zhang is seen as a softer and more 
media-friendly figure than his predecessor, after his taking 
his post he continued to reiterate official calls to place 
``stability above all else'' and to ``strike hard with maximum 
pressure'' against the ``three forces'' of terrorism, 
separatism, and religious extremism.
    Also notable from the past year, in May, central government 
and Party authorities convened a meeting on Xinjiang policy. 
Authorities at the meeting defined ``development by leaps and 
bounds'' and upholding stability as twin goals for the region, 
and they announced a series of initiatives to spur economic 
development. It 
remains an open question, however, to what extent local 
communities, and especially Uyghurs and other non-Han groups, 
will benefit from potentially positive aspects of these 
initiatives.
    At the same time, other initiatives, such as promoting 
schooling in Mandarin Chinese at the expense of Uyghur, 
resettling herders, and bolstering state-defined ethnic unity 
campaigns, raise serious questions and concerns for the rights 
of Uyghurs and other non-Han groups to preserve their language, 
culture, and heritage.
    Also in the past year, China's influence in neighboring 
countries and its disregard for international refugee law 
continued to have serious implications for Uyghurs. This was 
starkly illustrated in December when the Cambodian Government 
deported 20 Uyghur asylum seekers to China following Chinese 
Government intervention.
    In our report, we also detail a number of other measures 
that have fueled worsening human rights conditions in the 
region, especially for Uyghurs. These include rampant job 
discrimination, new controls over internal Uyghur migrants 
within Xinjiang, and continued work to raze the old city 
section of Kashgar, thereby undermining Uyghurs rights to 
preserve their cultural heritage and 
undercutting property protections. I'm happy to pick up on any 
of these issues during the question and answer period. Thank 
you.
    Ms. Oldham-Moore. Thank you, Kara.
    Now we turn to Steve Marshall, who will discuss 
developments in Tibetan areas.

  PRESENTATION OF STEVE MARSHALL, SENIOR ADVISOR AND PRISONER 
 DATABASE PROGRAM DIRECTOR, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Mr. Marshall. All right. Thank you, Charlotte. These 
remarks, for the sake of the briefing, will just touch on five 
key areas, not the full spectrum of subjects of interest and 
concern with Tibetan areas. Those subjects are: the Dalai Lama; 
the Communist Party; religion; economic development; and law 
and punishment.
    The first of those five: the Dalai Lama. Over the past 
year, the Chinese Government continued to press what it calls 
its core interest policy. The core interests are issues that 
the Chinese Government identifies as involving sovereignty and 
national unity. On those issues, the Chinese Government expects 
other countries to follow its policy recommendations in the 
interests of trying to maintain ``harmonious relations'' with 
China.
    The purpose of that policy, internationally, is to try to 
isolate the Dalai Lama and diminish or end his international 
influence. A domestic policy that the Chinese Government 
continued to pursue in tandem with the international policy 
seeks to isolate Tibetans domestically from the Dalai Lama and 
his influence.
    The combination of these two policies could result in an 
increase of human rights abuses of Tibetans and, importantly, 
in a decrease in the ability of the international community to 
detect and respond to these abuses.
    With respect to the Communist Party, in January the 
Standing Committee of the Communist Party Politburo, the 
absolute top of the power organization of the Communist Party, 
held what is known as the Fifth Tibet Work Forum to outline a 
series of policy initiatives that, over the next 10 years, up 
to 2020, would seek to achieve sweeping economic, cultural, and 
development changes across the entire Tibetan area.
    One of the most important initiatives that this forum 
introduced was to expand the area of influence and coordination 
from the Tibet Autonomous Region [TAR] to include 10 Tibetan 
Autonomous Prefectures that are located in neighboring 
provinces, namely Qinghai, Gansu, Sichuan, and Yunnan.
    The effect of that is that the coordinated policy area--
which is contiguous--will roughly double the number of Tibetans 
affected by the policy and it nearly doubles the size of the 
policy area being coordinated by the central government and the 
central Communist Party structure.
    The third topic: religion. The situation for Tibetan 
Buddhism continued to deteriorate over the last year. One of 
the more important undertakings under way, which has not been 
widely reported, is a central government-directed re-
registration of what the government refers to as ``religious 
professionals.'' This would be monks, nuns, and teachers of 
Tibetan Buddhism. In the TAR, that was slated to be completed 
by the end of 2010.
    Part of this process is that religious authorities would 
review, basically, the patriotic position of monks and nuns and 
determine whether or not their registrations are valid. Were 
this policy to be applied in a manner that sought to weed out 
monks and nuns that were not sufficiently patriotic or did not 
adhere to what the government considers to be legal forms of 
religion, that could result in serious losses for the Tibetan 
monastic community. We don't have any information on that yet.
    A word on what's legal. Two of the things that the 
government official does not treat as legal is devotion to the 
Dalai Lama, and also Tibetan support or acceptance of the 
Panchen Lama identified by the Dalai Lama in 1995. His name is 
Gedun Choekyi Nyima. Both issues are very important to 
Tibetans, and the government seeks to prevent or discourage 
both of them.
    On economic development, Hu Jintao, the President of China 
and also the General Secretary of the Communist Party, at the 
Fifth Forum, outlined 10-year objectives that included 
increasing major infrastructure projects, increasing natural 
resource exploitation, and pushing forward with the policy to 
settle nomadic herders and re-settle farmers into larger and 
better-organized, fixed communities.
    During the year, one official gave a figure for the Tibet 
Autonomous Region--this was just the TAR--that by the end of 
2009, the government had settled 1.3 million nomadic herders 
and farmers into these communities. To put that into 
perspective, that would be roughly half of the population of 
the TAR that had been settled or re-settled by the end of 2009.
    Another very interesting figure: An official said that by 
the end of 2020, the TAR--this is not the whole area of the 
plateau, just the TAR--would increase the mining share of GDP 
from 3 percent currently to between 30 and 50 percent by 2020. 
This would be an increase of, say, 10 to 16 times in mining GDP 
by the end of this decade.
    Connected to this increase in mining, if anybody's been 
following the news, you've seen that over the past year there 
have been some Tibetan protests, rather heated protests, in a 
number of areas inside the TAR, and also in Sichuan and Gansu 
Provinces, by Tibetans who are unhappy with new and continuing 
mining initiatives.
    On law and imprisonment, a key process over the last year 
was increasing official use of the laws on splittism and what's 
known as ``leaking state secrets'' to imprison Tibetans for 
lengthy periods of time. Splittism, basically, can be when a 
Tibetan criticizes government policy on one issue or another 
and officials equate it with separatism--even if the subject 
doesn't have anything to do with ``independence.''
    Leaking state secrets, under the law, means that someone 
provides information that could be politically sensitive to 
individuals or organizations outside of China. In this case, 
this would be Tibetans inside of China trying to let Tibetans 
or Tibetan organizations outside of China know about incidents 
of repression. These contacts have been resulting in prison.
    Another key trend that has existed before but has become 
more prominent over the last year, is the imprisoning of 
secular civic leaders, intellectuals, writers, Tibetans who 
host Tibetan language Web sites, for reasons that sometimes 
involve political charges but other times can involve other 
charges. There appears to be an effort on the part of the 
government to remove some influential secular figures from 
society by putting them in prison. Thank you. And please ask 
questions about any of the topics on our report.
    Ms. Oldham-Moore. Thank you, Steve.
    Now we turn to the Q&A portion of this proceeding. We only 
have about a half hour, so I would encourage those of you in 
the audience to please ask questions of all our staff.
    Before you stand up and say your name, and ask a question I 
just want you to be mindful of two things. We always invite 
members or representatives from the Chinese Embassy to attend 
all of our events and we know our friends are here today, and 
that's welcomed. We hope that they will participate in this 
discussion.
    The second item is, we have a lot of press in the room. 
This proceeding is on the record, so if you have any privacy 
concerns, I want you to be mindful, if you ask questions, that 
they will be recorded.
    Audience Participant. My name is Matthew [inaudible] I 
didn't understand the reason for that.
    Mr. Marshall. It's a relatively new development, so there 
hasn't been a lot of discussion of it so far. All I can do is 
theorize and suggest what appears to be the case. There has 
been, for the past 20 years or so, fairly strong government 
pressure on the monastic community and that has been where a 
lot of the political push-back has come from in Tibetan 
society. Secular society has been relatively more quiet.
    But as the government has implemented policies on 
education, on economic development, the movement of population, 
re-settlement of farmers and nomads--policies that affect the 
secular part of society rather than the monastic part of 
society--this has contributed to Tibetan resentment.
    Also, Tibetans have taken to the Web, as my colleague 
Lawrence was describing, with real zeal. They've set up a lot 
of Tibetan language Web sites and they really like exchanging 
and circulating views and commenting on events and 
developments. That promotes a lot of discussion.
    Audience Participant. Anti-government discussion?
    Mr. Marshall. Generally speaking, they're very careful in 
their language. But anything that falls short of endorsing the 
government can be treated as suspicious, and particularly if 
they discuss the consequences of the 2008 protests, which 
involved a lot of deaths, a lot of long sentences. Tibetans 
feel that it's very important for them to share and circulate 
that information. The government will step in and stop that as 
well.
    Ms. Oldham-Moore. Thank you.
    Dr. Wan Yanhai?
    Dr. Wan. My question--[inaudible].
    Ms. Oldham-Moore. Can I recap what you just said very 
briefly and let them respond? Okay. I'm sorry. I didn't mean to 
cut you off.
    Dr. Wan.  [Inaudible.]
    Ms. Oldham-Moore. Right. Research in this area. Right.
    Dr. Wan. There is discrimination against Uyghurs and 
Tibetans in Beijing and other cities outside of Xinjiang and 
Tibet. Uyghur and Tibetan migrants in those areas also face 
unique health challenges. Your report just focuses on Xinjiang 
and Tibet. My recommendation is that you also should report on 
conditions for Uyghurs and Tibetans outside these areas.
    Ms. Oldham-Moore. Okay. Dr. Wan made a very good point, 
which is the report may not address in the detail that it might 
the challenges facing Uyghurs and Tibetans who migrant to 
eastern cities, who migrate out of Xinjiang and Tibetan areas, 
and the challenges they face in their daily lives--getting into 
hotels, getting residency permits, etc.
    He mentioned the example of Uyghurs who, as Muslims, try to 
meet together collectively. Those groups are broken up by the 
police in some eastern cities and the Uyghurs have to sleep on 
the streets. He recommended that the Commission should 
recommend support of funding for research on the socio-economic 
effects of this kind of migration and the impact. I hope I got 
that right, Dr. Wan.
    Dr. Wan. Yes.
    Ms. Oldham-Moore. Okay. Yes, please.
    Ms. Abramson. Thank you for your comments. It certainly is 
an issue of concern that we have been following. We have noted 
reports, especially around the time of the Olympics, of curbs 
on hotel access for Tibetans and Uyghurs in other cities. 
Certainly that is an issue of concern.
    Because of the way our report is divided, in some cases we 
have dealt with cases of Uyghurs or Tibetans elsewhere in China 
in sections of the report on freedom of residence, for example, 
or other sections. We mention this year, for example, a Uyghur 
scholar in Beijing who has had trouble leaving the country, and 
it's not in the Xinjiang section but in the freedom of 
residence section. Because of the way our report is divided up, 
the information may be spread throughout the report. It is an 
issue we will continue to follow.
    Of note, we have, as you know, a political prisoner 
database and we have put in a number of cases recently that 
highlight the challenges that Uyghurs face in cities outside of 
Xinjiang. These include a number of cases recently of Uyghurs 
who were rounded up as they were petitioning in Beijing and the 
case of a Uyghur who didn't have an ID card and was sent back 
to Xinjiang. So a number of cases in our database, which is 
publicly accessible from our Web site, detail some of these 
challenges that Uyghurs outside of Xinjiang face.
    Mr. Marshall. Dr. Wan, I agree with all of your points and 
all of those are important issues to cover. One thing that I 
think would help, is for everybody to understand that each of 
these annual reports is not a report on the entire spectrum of 
human rights issues every single year. The annual reports are 
based on events and trends over the past year.
    So, we don't necessarily have an identical focus every year 
because different things happen in different years. For 
example, with the Tibet section in past years, I've had 
sections on job opportunities, employment, education, and 
literacy. I think, in 2008-2009, the report addressed the issue 
of registering in hotels that you mentioned--residency permits. 
That has been in the Annual Report. If anyone read five years' 
worth of the reports, there is a lot more information 
available.
    Thank you very much.
    Ms. Oldham-Moore. Thank you.
    Yes, sir?
    Audience Participant. Can you say anything that happened 
this year about the difficulties Uyghurs and Tibetans were 
having [inaudible] using their languages in the schools?
    Ms. Oldham-Moore. Kara?
    Ms. Abramson. Yes. Thank you. That's a hugely important 
issue that we've been covering extensively in several reports. 
In Xinjiang, the issue is that the government has been 
promoting what it calls bilingual education. It's been doing 
this on a trial basis since the 1990s, but it really went into 
full gear starting in the mid-2000s.
    It's called bilingual education, but the model that the 
government has chosen to implement most widely in Xinjiang is 
essentially school instruction in Mandarin Chinese, with Uyghur 
largely relegated to a language arts class, or sometimes 
completely eliminated from the school. So the way shifts in 
language use have been playing out in Xinjiang have largely 
taken place in schools, where this bilingual education program 
has been implemented.
    As I mentioned, it's been growing each year since the mid-
2000s, but notably, in May, central government and Party 
authorities met to hold a meeting on Xinjiang's future 
development. At this meeting, they pledged that by 2020, all 
students would have proficiency in Mandarin Chinese. So this is 
a pretty big development because, although the Chinese 
Government has been promoting bilingual education for many 
years, it's easier said than done, and it has not yet been 
fully implemented. It still requires a lot of skilled teaching 
staff.
    Up until now, the government has made steady, but slow, 
progress to some extent. I think with this renewed desire 
following this high-level meeting in Beijing, we are seeing 
more resources, more money, and more teachers being poured into 
this project. This can have serious implications for the future 
of the Uyghur language and for Xinjiang schools. There are some 
new limited efforts and limited pilot programs that we've seen 
to have Uyghur instruction in some schools along with Mandarin 
Chinese instruction, but the real thrust of educational policy 
in Xinjiang is to make Mandarin the medium of instruction by 
2020, and we now see an even greater push behind that from the 
government.
    Ms. Oldham-Moore. Just briefly, and then I want to get some 
questions on criminal justice and environment.
    Mr. Marshall. If anybody's been looking at the news 
yesterday and today, you'll have seen a very important story 
that has emerged from one of the capitals of one of the Tibetan 
autonomous prefectures. This story is on Qinghai Province and 
involves protests by between a thousand and several thousand 
students from five different schools and their teachers. They 
were very orderly, teachers and students peacefully and quietly 
protesting on the street, and it's about this very subject: the 
role of Tibetan language and studies.
    The government had announced that they were going to 
transfer more of the teaching curriculum from Tibetan language 
to Chinese language--the announcement put both students and 
teachers in the street. This is an ongoing topic which we are 
watching very closely. It's an agonizing balancing act for 
Uyghurs and Tibetans.
    On the one hand, they need very much to learn Chinese 
language so they can find employment in a very competitive job 
market, and on the other hand they need to maintain their 
language in order to maintain their culture. This is a very 
important story and we'll be watching it for years.
    Ms. Oldham-Moore. Great. Thank you.
    Can I have questions on the environment, criminal justice 
concerns, religion? Is anybody asking questions on those 
matters? Sir, you? Thank you.
    Mr. Shaw. My name is Zachary Shaw. I work at the U.S.-China 
Economic and Security Review Commission. Many Chinese media 
commentary regarding Liu Xiaobo claim he made statements 
alluding to, China should be colonized by the West. Have you 
heard of these statements and did he actually say them? What is 
the difference between Chinese perceptions of dissidents and 
Chinese media perceptions versus the perception in the West?
    Mr. Liu. Unfortunately, I don't know. I can't answer the 
question of whether or not he said those things. I've seen some 
of the articles that you've mentioned. My sense is that, I 
mean, he's apparently written hundreds of essays, upward of 
800, the majority of them written since 2005. He's written on 
all kinds of topics relating to political reform. Certainly 
there's a lot of material to potentially work with, if you 
wanted to find something that you could use to either--I don't 
know.
    I don't know the context, but some of the stuff is out 
online. If you wanted to look for it, I'm sure you could find 
it. In terms of our work, we don't get into sort of parsing 
what the significance or interpreting what the sort of 
substantive meaning of what they said is.
    What we focus on is, was the trial fair and in terms of 
what the court cited as the reasons for punishing him, whether 
or not those were legitimate reasons under international human 
rights law. Now, whether or not he deserved the Nobel Peace 
Prize, that's a separate issue for the rest of you guys to 
consider.
    Ms. Oldham-Moore. Thank you.
    Yes, sir. In the back, with the yellow tie.
    Mr. Lee. I'm Nun Lee from [inaudible] and I have a 
question. In the past year, I've seen a lot of Chinese citizens 
mobilize themselves to defend their human rights, and in some 
cases they were successful [inaudible] they were able to 
[inaudible]. One of these cases was the case of [inaudible], 
and even [inaudible] played a very important role in that case. 
But I have two questions. One question is, do you see the 
potential of this [inaudible] approach of human rights 
[inaudible] since human rights have been playing an important 
role in this case [inaudible] recommendations [inaudible] to 
take action [inaudible] more freedom [inaudible].
    Ms. Oldham-Moore. Thank you.
    Doug, do you want to reply to the question on political 
reform?
    Mr. Grob. I think this raises the question of how we assess 
and measure progress, or, as in the case that you cite, 
openness. For example, we do see specific cases that we might 
observe as openness. Sometimes you see investigative journalism 
allowed to do its work in China. You see this in cases of 
wrongful conviction, you see it in some cases of 
whistleblowers. You see it sometimes in anti-corruption cases. 
So what you called the grassroots, bubble-up 
approach can play an anti-corruption role, and some central 
authorities see that.
    However, I think that as analysts we have to be extra 
careful to differentiate between two types of cases, both of 
which may at first appear to signify greater openness. We have 
to differentiate between cases in which the end result of 
openness aligns with central government or party policy and 
cases in which it does not. For example, if it is in the 
central government's or the central Party leadership's interest 
to pursue anti-corruption in a specific locality such that the 
activities ``bubbling up'' serve that interest, then we may 
observe what will appear to be openness. But it will not be as 
significant as, say, central authorities' permitting openness 
when it is not in their immediate interests politically to do 
so, but they do so nonetheless. If we publicly recognize the 
former as a case of the latter, then we are not necessarily 
contributing to the promotion of the rule of law. We should 
publicly recognize as cases of openness those cases in which 
central authorities permit openness when it is difficult 
politically for them to do so, but they do so nonetheless. It 
is critical that we differentiate these types of cases.
    Ms. Oldham-Moore. And in terms of the Internet, we have a 
whole section of recommendations for the U.S. Government, so I 
would ask that you read this report.
    Any other questions? Yes. Madeleine? Please.
    Ms. McDougall. Hi. I'd just like to ask a quick question in 

regard to religion other than Buddhism and Islam. In regard to 
religious groups such as Protestants, Catholics, and ``cult'' 
organizations, what types of trends have you observed, 
particularly in connection with major events, including the 
Shanghai Expo and the upcoming Asian Games?
    Ms. Oldham-Moore. Thank you, Madeleine. Kiel Downey, who's 
our resident expert on Protestantism in China, will speak to 
that.
    Mr. Downey. Thank you very much for that question. That's a 
broad question that covers a number of different groups, but 
I'll try to be concise. In the last few months of 2009, we did 
see a fairly clear trend in terms of a string of cases where 
authorities were targeting particularly large, high-profile, 
``house churches,'' which refers to groups of Protestants in 
China that are not part of the state-sanctioned religious 
community, and that's another issue, but Protestants who are 
not part of state-controlled churches, some in Beijing, 
Shanghai, and other locations.
    There was a fairly clear trend in which authorities, 
according to reports that we saw, had pressured landlords to 
move house church congregations out of their places of worship, 
and then authorities were targeting these groups after they 
began meeting in public spaces, such as parks or other public 
locations, trying to disperse these congregations. That was 
just a string of incidents over one short period of time. In 
terms of broad trends, it's difficult to say for sure what we 
expect to see in the future.
    But one thing I will say, especially in regard to 
Protestants, is that I've seen a number of reports over the 
past year indicating that the space or scope of activity for 
unregistered Protestants in China is expanding. I'd like to 
clarify and qualify that statement. From the reports I've seen, 
it does appear that the sheer size of the Protestant community 
in China is indeed increasing fairly rapidly.
    But in terms of whether the space for activity is 
increasing, I think it depends on how you look at it, because 
certainly by virtue of the fact that the size of the community 
is increasing, there is an increase in the amount of activity, 
including activity outside of state-sanctioned parameters. But 
at the same time, as evidenced by those cases that we saw at 
the end of last year and other cases throughout 2010, there are 
definitely limits, at least in certain cases, on what 
worshipers are permitted to do.
    I think you also asked a question about the Shanghai World 
Expo and the Asian Games. Is that correct?
    Ms. McDougall. Yes.
    Mr. Downey. One thing that the Commission has observed 
around the period of the Shanghai World Expo is a tightening of 
security measures, particularly with reference to Falun Gong 
practitioners. A number of local governments in the greater 
Shanghai area have issued statements and directives to public 
security authorities, asking them to look out for potential 
Falun Gong activities surrounding the Shanghai World Expo, such 
as petitioning or protests, and to be vigilant about finding 
and targeting Falun Gong practitioners during that time.
    The same goes for the Asian Games. The Asian Games are 
typically held in Guangzhou, and local governments in the area 
around Guangzhou have also issued a number of statements to the 
public security authorities, instructing them to be vigilant 
about any sort of unapproved religious activity surrounding the 
time of the Asian Games, any sort of incident that might 
contribute to ``instability'' in that area.
    Ms. Oldham-Moore. Thank you, Kiel.
    Anybody else? Ms. Susan Weld? Please.
    Ms. Weld. [Inaudible.] Are there any bright spots to report 
in relation to environmental protection and information 
transparency?
    Ms. Oldham-Moore. Yes.
    Ms. Weld. [Inaudible.] What about the Open Government 
Information regulations, are they being implemented?
    Ms. Oldham-Moore. Anna Brettell, could you address that? 
Lawrence? Please. On Open Government Information [OGI] and 
whether it's being advanced, and how effectively it's being 
used.
    Ms. Brettell. There were a couple of studies that looked at 
the use of OGI in the environment sector, one involving 113 
cities. They found some bright spots in that citizens were 
asking for information based on the Open Government Information 
regulations. They were making requests. The environmental 
protection bureaus in some cities were responding and being 
quite transparent, while in other cities they were not.
    One of the reports indicated that there are a number of 
reasons why government officials may not respond to citizen 
information requests, including the lack of institutional 
capacity, the vagueness of the OGI measures, and the 
inconsistency in making officials accountable for failing to 
comply with the measures. In some locations, there may be the 
lack of political will to be more transparent. There are a 
number of different issues, but there have been some bright 
spots, yes.
    Ms. Oldham-Moore. Go ahead. Oh, I'm sorry. Lawrence wants 
to jump in.
    Mr. Liu. I just wanted to highlight an important related 
development, which was the amendment of the state secrets law, 
which a lot of people viewed in tandem with the OGI regulations 
and had hoped that the state secrets law would be amended in a 
way that would give greater clarity and definition to what a 
state secret is under Chinese law.
    The amendment went through, I believe--I can't remember the 
month, but it was a recent amendment earlier this year, in 
April of this year. It just recently took effect early this 
month, which basically leaves intact the vague definition of 
state secrets. So as a fundamental barrier to the OGI, that law 
hasn't changed.
    Mr. Grob. Let me just add as well, if you're interested, in 
our report, on page 61, and then again on pages 174-176, we 
cover 
developments concerning the Open Government Information 
Regulation. For those who may not be familiar, the Open 
Government Information Regulation was issued by the State 
Council a couple of years ago, and it essentially is a records 
access regulation. It allows individuals to file applications 
for access to government information in China. It was rolled 
out as part of a broader anti-corruption initiative, and it 
obviously speaks to the twin goals of accountability and 
transparency. In terms of promising developments, one of them, 
which we go into somewhat in the report, is the application of 
the Regulation and the exercise of rights under the Regulation 
in areas such as budget transparency and so forth. Another 
promising development is the analysis that's going on, both by 
public organs, state organs in China, as well as by local 
social science academies, which do research for the local 
governments, and by the Chinese Academy of Social Sciences, 
which is the public policy research arm of the State Council. 
In the academic sector as well, there's a great deal of 
analysis going on, grappling with key questions in the 
implementation of this Regulation.
    One question that's on the table that is very interesting 
is, are applications for access to government information 
themselves considered records that are then subject to the OGI 
Regulation? In other words, can someone submit an application 
for access to information about the government's handling of a 
request for information previously submitted on another matter? 
This would provide a way to analyze the effectiveness of 
implementation. We can talk further about this afterward if 
you'd like.
    Ms. Oldham-Moore. Okay. One last question.
    Ms. Marsden. I am Lani Marsden, a CECC intern. My question 
is: This past year the State Administration Foreign Exchange 
put out new restrictions on foreign funding to Chinese civil 
society organizations. How has this affected public health 
organizations in particular?
    Ms. Oldham-Moore. Did you catch that, Abbey? Okay. She 
asked about foreign funding assistance to public health 
organizations in China.
    Ms. Story. Thank you for your question. This is definitely 
an issue of concern.
    Ms. Oldham-Moore. Oh. Yes.
    Ms. Story. The Commission does not have much recent 
information on the direct impact that these regulations have 
had on public health advocacy organizations. To give a brief 
background, the State Administration of Foreign Exchange issued 
a circular in March 2010 requiring that domestic 
organizations----
    Ms. Oldham-Moore. Receipt of funds from overseas.
    Ms. Story [continuing].--receiving donations from abroad 
must submit their business licenses, notarized donation 
agreements, and certificates of registration of the overseas 
donating organizations. The requirements are restrictive, and 
authorities could use them to exercise tighter control over the 
activities of select organizations they deem to be 
``problematic'' for various reasons. It is still early, 
however, so many organizations are just sort of waiting and 
seeing how the circular will be implemented. We have not yet 
heard detailed reports of the impact on specific groups.
    Ms. Oldham-Moore. Thank you.
    I know some of you might get whiplash here because we're 
bouncing from topic to topic, but this is great for people who 
have no attention span, like myself.
    Jesse Heatley. This last question is from Chairman Dorgan, 
who's had a great amount of concern about the state of Gao 
Zhisheng, who is one of the foremost human rights defenders in 
China. Can you give us an update on, where is Gao? Senator 
Dorgan wants to know: Where is Gao?
    Mr. Heatley. I wish I could. Gao continues to be forcibly 
detained. We don't have any updates on his whereabouts. Gao 
resurfaced in late March. At that point he contacted a number 
of foreign media outlets and told them he was staying near 
Wutai Mountain, and he returned to Beijing shortly in April. He 
was there and gave a certain number of interviews in April and, 
by mid-April, around April 20, April 21, he once again was 
forcibly detained or disappeared. At present, we haven't had an 
update from any Chinese officials, overseas media, or nonprofit 
organizations that are covering the case, so it continues to be 
of great concern to our government, and other governments in 
Europe as well.
    Ms. Oldham-Moore. Thank you.
    The continued disappearance and lack of knowledge about Gao 
Zhisheng is a very sad situation, which hopefully will be 
addressed soon by the Chinese Government.
    Thank you for coming today. This has been a genuine 
pleasure for us to have you here and to share our work with 
you. So, thank you very much. And if you want to talk to 
individual staff experts, please come on up afterward and 
they'll be available. Also, visit our Web site and feel free to 
call us at any time. Thank you.
    [Whereupon, at 3:05 p.m. the roundtable was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
